  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


   The State of Michigan’s Management 

    of State Homeland Security Grants 

       Awarded During Fiscal Years 

             2002 through 2004 





OIG-08-26                   February 2008
                                                                          Office of Inspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                     February 15, 2008

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports published as
part of our oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

The attached report presents the results of the audit of the State of Michigan’s management of
State Homeland Security Grants awarded during Fiscal Years 2002 through 2004. We contracted
with the independent public accounting firm of Foxx & Company to perform the audit. The
contract required that Foxx & Company perform its audit according to generally accepted
government auditing standards and guidance from the Office of Management and Budget and the
Government Accountability Office. Foxx & Company’s report identified seven reportable
conditions where State management of the grant funds could be improved. The report contains
18 recommendations addressed to the Administrator, Federal Emergency Management Agency.

Foxx & Company is responsible for the attached auditor’s report dated January 24, 2008, and the
conclusions expressed in the report. The recommendations herein have been discussed in draft
with those responsible for implementation. It is our hope that this report will result in more
effective, efficient, and economical operations. We express our appreciation to all of those who
contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General        

January 24, 2008

Mr. James L. Taylor
Deputy Inspector General
Office of Inspector General
Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Mr. Taylor:

Foxx & Company performed an audit of the State of Michigan’s management of the Department of
Homeland Security, Office of Grants and Training, State Homeland Security Grants for Fiscal Years
2002, 2003, and 2004. The audit was performed in accordance with our Task Order No. TPD ARC
06-K-00206, dated May 17, 2006.

This report presents the results of the audit and includes recommendations to help improve the
State’s management of the audited State Homeland Security Grant Programs. These programs are
commonly referred to as first responder grant programs.

Our audit was conducted in accordance with applicable Government Auditing Standards, June 2003
revision. The audit was a performance audit as defined by Chapter 2 of the Standards and it
included a review and report of program activities with a compliance element. Although the audit
report comments on costs claimed by the State Administrative Agency, we did not perform a
financial audit, the purpose of which would be to render an opinion on the agency’s financial
statements or the funds claimed in the Financial Status Reports submitted to the Department of
Homeland Security.

We appreciate the opportunity to have conducted this audit. If you have any questions, or if we can
be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations 



  Executive Summary ................................................................................................................1 


  Background ............................................................................................................................ 3 


  Results of Audit ...................................................................................................................... 7 


        Use of Grant Funds Not Linked to Needs Assessments and Priorities ............................. 8 

        Established Goals and Objectives Not Measurable ........................................................ 12 

        Program Monitoring and Evaluation Not Adequate ....................................................... 15 

        Training Needs Not Met ................................................................................................. 18 

        Reallocated Funds Not Fully Explained or Documented ............................................... 20 

        Personal Property Controls and Accountability Not Enforced ...................................... 24 

        Some Equipment Not Needed, Misused, or Not Ready ................................................. 27 


  Appendices

       Appendix A:           Objectives, Scope, and Methodology ...................................................... 30 

       Appendix B:           Organization Chart ................................................................................... 32 

       Appendix C:           Michigan State Administrative Agency Response .................................. 33 

       Appendix D:           Report Distribution .................................................................................. 40 


  Abbreviations

       DHS             Department of Homeland Security 

       FEMA            Federal Emergency Management Agency 

       FY              Fiscal Year         

       OIG             Office of Inspector General 

Executive Summary

             Foxx & Company completed an audit of Department of Homeland Security
             State Homeland Security Grants awarded to the State of Michigan. The
             objectives of the audit were to determine whether the State Administrative
             Agency (1) effectively and efficiently implemented the first responder grant
             programs, (2) achieved the goals of the programs, and (3) spent funds in
             accordance with grant requirements. The goal of the audit was to identify
             problems and solutions that would help the State of Michigan prepare for and
             respond to terrorist attacks. See Appendix A for additional details on the
             objectives, scope, and methodology of this audit.

             The audit included review of approximately $129 million awarded to the State
             of Michigan from the Fiscal Year 2002 State Domestic Preparedness Program,
             Fiscal Year 2003 Parts I and II State Homeland Security Grant Program, and
             the Fiscal Year 2004 Homeland Security Grant Program. Michigan’s
             Department of State Police was the designated State Administrative Agency
             for the grant programs. The Agency’s Emergency Management and
             Homeland Security Division managed the programs, commonly referred to as
             first responder grant programs.

             Although the scope of this audit included a review of costs claimed, a
             financial audit of those costs was not performed. Accordingly, we do not
             express an opinion on Michigan’s financial statements or the funds claimed in
             the Financial Status Reports submitted to Federal Emergency Management
             Agency.

             Overall, the State Administrative Agency did an adequate job administering
             program requirements related to identifying statewide needs and strategy,
             disbursing grant funds, and ensuring that all of the available funds were used.
             However, the State Administrative Agency did not have a documented
             analysis of how effective its efforts had been in preparing first responders for
             terrorist incidents. As a result, the State Administrative Agency did not have
             a valid basis for justifying future first responder grant funds and management
             decisions. The State Administrative Agency did not ensure that:

                •	 The use of grant funds was linked to assessed needs and established
                   priorities,
                •	 Established goals and objectives for local jurisdictions were
                   measurable,
                •	 Subgrantee monitoring and evaluation system was effective,
                •	 First responder training needs were met,


              The State of Michigan’s Management of State Homeland Security Grants

                          Awarded During Fiscal Years 2002 through 2004 


                                             Page 1 

   •	 Reallocated Fiscal Year 2003 Part II funds were fully explained and
      documented,
   •	 Local jurisdictions implemented required controls and accountability
      systems for procured personal property, and
   •	 All equipment procured was needed, used for its intended purpose, and
      ready for emergency use.

The body of the report provides detailed discussions and recommendations for
each of these findings. The recommendations call for the Administrator,
Federal Emergency Management Agency, to require the State Administrative
Agency to take actions to:

   •	 Link grant fund expenditures and future funding requests to filling
      identified shortfalls in equipment, training, and exercises in
      accordance with State priorities,

   •	 Establish measurable goals and objectives for filling the shortfalls and
      accomplishing the priorities,

   •	 Improve the statewide system for monitoring and evaluating local
      jurisdiction activities,

   •	 Ensure that needed training is provided to local first responder 

      personnel, 


   •	 Provide a fully supported explanation for the reallocated Fiscal Year
      2003 Part II funds that could not be used by local jurisdictions,

   •	 Ensure that local jurisdictions establish and maintain required controls
      and accountability systems for procured personal property, and

   •	 Emphasize that equipment purchases are to be limited to items that are
      needed and that the equipment is to be utilized only for authorized
      purposes and maintained in a ready condition for emergency use.

Federal Emergency Management Agency and State of Michigan officials
provided verbal concurrences with the recommendations contained in this
report at their exit conferences on November 30 and December 6, 2007,
respectively. Additionally, the State officials provided a written response to
the recommendations on December 11, 2007. (See the full text of their
response in Appendix C.) The Administrator, Federal Emergency
Management Agency, will provide corrective actions and a plan to implement
those corrective actions within 90 days of the date of this report.


 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                                Page 2 

Background

             The Homeland Security Grant Program is a federal assistance grant program
             administered by the United States Department of Homeland Security (DHS),
             Grant Programs Directorate within the Federal Emergency Management
             Agency (FEMA). The current Grant Programs Directorate, hereafter referred
             to as FEMA, began with the Office of Domestic Preparedness, which
             transferred from the Department of Justice to DHS in March 2003. The
             Office of Domestic Preparedness was subsequently consolidated into the
             Office of State and Local Government Coordination and Preparedness which,
             in part, became the Office of Grants and Training, and which subsequently
             became part of FEMA.

             Although the function was transferred to DHS, applicable Department of
             Justice grant regulations and legacy systems are still used as needed to
             administer the program. For example, the State Administrative Agency enters
             payment data into the Office of Justice Programs Phone Activated Paperless
             Request System, which is a drawdown payment system for grant funds.

             DHS is responsible for enhancing the capabilities of state and local
             jurisdictions to respond to, and mitigate the consequences of, incidents of
             domestic terrorism. FEMA provides grant funds to aid public safety
             personnel (e.g., first responders) to acquire specialized training, participate in
             exercises, and procure equipment necessary to safely respond to and manage
             terrorist incidents involving chemical, biological, radiological, nuclear, or
             explosive weapons, including weapons of mass destruction. First responders
             include firefighters, police, paramedics, and others. The grants are
             collectively referred to as first responder grants. These types of grants within
             the Homeland Security Grant Program provide federal funding to help states
             and local agencies enhance their capabilities to prevent, deter, respond to, and
             recover from threats or acts of terrorism.

        First Responder Grant Programs
             Fiscal Year (FY) 2002 State Domestic Preparedness Program: This
             program provided financial assistance to each of the states, United States
             Territories, the District of Columbia, and the Commonwealth of Puerto Rico.
             DHS provided financial assistance for (1) the purchase of specialized
             equipment to enhance the capability of state and local agencies to respond to
             incidents of terrorism involving the use of weapons of mass destruction;
             (2) the protection of critical infrastructure; (3) the design, development,
             conduct, and evaluation of weapons of mass destruction exercises; and (4) the
             reimbursement for administrative costs associated with the implementation of
             the statewide domestic preparedness strategies.

               The State of Michigan’s Management of State Homeland Security Grants

                           Awarded During Fiscal Years 2002 through 2004 


                                              Page 3 

FY 2003 State Homeland Security Grant Program - Part I: This program
provided financial assistance for (1) the purchase of specialized equipment to
enhance the capability of state and local agencies to prevent and respond to
incidents of terrorism involving the use of chemical, biological, radiological,
nuclear, or explosive weapons; (2) the protection of critical infrastructure and
prevention of terrorist incidents; (3) the design, development, conduct, and
evaluation of chemical, biological, radioactive, nuclear, or explosive weapons
exercises; (4) the design, development, and conduct of state chemical,
biological, radioactive, nuclear, or explosive weapons training programs; and,
(5) the updating and implementing of each State Administrative Agency’s
homeland security strategy.

FY 2003 State Homeland Security Grant Program - Part II: This program
supplemented funding available through FY 2003 for the State Homeland
Security Grant Program to enhance first responder preparedness. State
Homeland Security Grant Program Part II funds also were available to mitigate
the costs of enhanced security at critical infrastructure facilities during the
period of hostilities with Iraq and future periods of heightened threat.

FY 2004 Homeland Security Grant Program: This program integrated the
Homeland Security Grant Program, the Law Enforcement Terrorism
Prevention Program, and the Citizen Corps Program into a single grant
program. Funding from this combined program was to enhance the
coordination of regional efforts to prevent chemical, biological, nuclear,
explosive, and cyber attacks.

The State of Michigan received approximately $129 million from these four
grant programs. The funded activities and amounts for each program are
shown in the following table.




 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                                Page 4 

                                                  Table 1
                              Michigan Homeland Security Grants Awards
                                       FYs 2002 through 2004
                                                  Grant Program
                                                      ('000s)
                                                     2003           2003
                                                     State          State       2004
                                  2002 State
                                                   Homeland       Homeland    Homeland
               Funded             Domestic
                                                    Security       Security    Security    Totals
               Activity          Preparedness
                                                     Grant          Grant       Grant
                                   Program
                                                   Program,       Program,     Program
                                                     Part I         Part II
    Equipment                          $8,561        $11,170            N/A         N/A    $19,731
    Exercise                             $397         $2,793            N/A         N/A     $3,190
    Training                              N/A           $838            N/A         N/A      $838
    Planning and                          N/A         $1,117            N/A         N/A     $1,117
    Administration
    First Responder                       N/A               N/A     $36,540         N/A    $36,540
    Preparedness
    Critical Infrastructure               N/A               N/A      $5,622         N/A     $5,622
    Protection
    State Homeland Security               N/A               N/A         N/A     $47,083    $47,083
    Law Enforcement                       N/A               N/A         N/A     $13,971    $13,971
    Terrorism Prevention
    Citizen Corps                         N/A               N/A         N/A       $978       $978
    TOTALS                             $8,958        $15,918        $42,162     $62,032   $129,070


Michigan Emergency Management and Homeland Security Division
     Michigan’s Governor designated the Michigan State Police to be the State
     Administrative Agency for the homeland security grant programs. The
     responsibility for administering the homeland security grants was assigned to
     the State Police’s Emergency Management Division. The Division was
     renamed the Emergency Management and Homeland Security Division in
     2006. The Emergency Management and Homeland Security Division
     (grantee) administered all four of the grant programs for the State, while also
     carrying out its other emergency management responsibilities.

     The Emergency Management and Homeland Security Division was under the
     direction of the Deputy State Director of Emergency Management. As of
     October 2006, the Emergency Management and Homeland Security Division
     had 82 funded positions, which had increased from 55 funded positions in
     February 2003. The organization chart as of May 2007 for the Emergency
     Management and Homeland Security Division is included as Appendix B.


       The State of Michigan’s Management of State Homeland Security Grants

                   Awarded During Fiscal Years 2002 through 2004 


                                       Page 5 

Michigan’s local jurisdictions receiving funds as subgrantees under the grant
programs included 83 counties and 21 cities, townships, and other local
government entities. The subgrants were typically administered by an
emergency management director or coordinator employed by the county or
other local jurisdiction. “First responders” included law enforcement, fire
services, emergency medical services, health services, and other personnel
within the local jurisdiction’s boundary.




 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                                Page 6 

Results of Audit
               DHS awarded approximately $129 million to the State of Michigan from the
               FY 2002 State Domestic Preparedness Program, from the FY 2003 Parts I and
               II State Homeland Security Grant Program, and from the FY 2004 Homeland
               Security Grant Program. The State Administrative Agency awarded subgrants
               totaling about $99.3 million to the State’s 83 counties and 21 other local
               jurisdictions (e.g., cities and townships). Counties and other local
               jurisdictions used the grant funds to purchase equipment and provide training
               and exercises for individual first responders.

               Foxx & Company completed an audit of the State of Michigan’s management
               of DHS FYs 2002, 2003, and 2004 first responder grants. The objectives of
               the audit were to determine whether the State Administrative Agency
               (1) effectively and efficiently implemented the first responder grant programs,
               (2) achieved the goals of the programs, and (3) spent funds in accordance with
               grant requirements. The goal of the audit was to identify problems and
               solutions that would help the State of Michigan prepare for and respond to
               terrorist attacks. Nine “researchable questions,” developed by the DHS Office
               of the Inspector General, provided the framework for the audit. The
               “researchable questions” were related to the State Administrative Agency’s
               planning, management, and results evaluations of grant activities.
               Appendix A provides additional details on the objectives, scope, and
               methodology of this audit, including the nine researchable questions.

               We visited 7 counties and 30 first responder units within those counties (law
               enforcement, fire, emergency services, and other entities). The State
               Administrative Agency awarded the 7 counties and the 30 first responder units
               about $5.7 million from the FYs 2002, 2003, and 2004 first responder grant
               programs.

               Overall, the State Administrative Agency did an adequate job administering
               program requirements related to identifying statewide needs and strategy,
               disbursing grant funds, and ensuring that all of the available funds were used.
               However, the State Administrative Agency did not have a documented
               analysis of how effective its effort had been in preparing first responders for
               terrorist incidents. As a result, the State Administrative Agency did not have
               a valid basis for justifying future first responder grant funds and management
               decisions. The State Administrative Agency did not ensure that:

                     •	 The use of grant funds was linked to assessed needs and established
                        priorities,
                     •	 Established goals and objectives for local jurisdictions were
                        measurable,

                   The State of Michigan’s Management of State Homeland Security Grants

                               Awarded During Fiscal Years 2002 through 2004 


                                                  Page 7 

              •	 Subgrantee monitoring and evaluation system was effective,
              •	 First responder training needs were met,
              •	 Reallocated FY 2003 Part II funds were fully explained and
                 documented,
              •	 Local jurisdictions implemented required controls and accountability
                 systems for procured personal property, and
              •	 All equipment procured was needed, used for its intended purpose, and
                 ready for emergency use.

           Although this audit included a review of some of the costs claimed for grant
           funds, we did not perform a financial audit of those costs. Accordingly, we
           do not express an opinion on the State Administrative Agency’s financial
           statements or the funds claimed in the Financial Status Reports submitted to
           FEMA.

           Our findings warrant attention at local, state, and federal levels. Managers at
           all levels need to provide stronger leadership, more specific direction to local
           jurisdiction personnel who are being relied upon to be effective first
           responders, and much-improved evaluations of results against measurable
           goals and objectives.

Use of Grant Funds Not Linked to Needs Assessments and Priorities
           The State Administrative Agency did not require local jurisdictions to link
           their acquisitions of equipment, training, and exercises to the needs
           assessment results or the State-established priorities. The State
           Administrative Agency did not evaluate progress made from year to year in
           meeting identified shortfalls and determine if priorities were being followed.
           There was little assurance that procured items appropriately addressed the
           equipment, training, and exercise shortfalls identified in the needs
           assessments. Also, the State Administrative Agency had little assurance that
           local decisions on how to spend grant funds were consistent with the State
           Administrative Agency’s identified priorities.

           Needs Assessments Identified Shortfalls

           DHS Program Guidelines for the FY 2002 grant program required that the
           receipt of first responder grant funds would be contingent upon the
           development of a domestic preparedness strategy. The guidelines stated that
           the strategy must be directly linked to the results of needs assessments in
           recognition of the threat of terrorist attacks using weapons of mass
           destruction.


            The State of Michigan’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2002 through 2004 


                                           Page 8 

The State Administrative Agency’s approved strategic plan dated
October 2001 identified and quantified the overall assessed needs and
shortfalls for equipment, training, and exercises. Concerning equipment
shortfalls, the strategy indicated local jurisdictions had only 22,903
(12.5 percent) of 183,123 equipment line items required to mount an effective
response to a weapons of mass destruction incident. Also, the strategy
indicated that only 46,941 of the 202,058 total personnel population needing
weapons of mass destruction training were currently trained. Accordingly,
155,117 (76.8 percent) were not currently trained. Completion of required
exercises ranged from 12.5 percent for field training on biological hazards to
100 percent for field training on incendiary hazards.

State Plan Identified Priorities

The State Administrative Agency’s October 2001 strategic plan set forth the
following equipment priorities for local jurisdictions, but did not rank or make
the priorities mandatory:

    •	 Personal protective equipment to safeguard law enforcement, fire,
       medical emergency, and other first responder personnel,

    •	 “Reach back” communications systems for notification and warning in
       the event of an incident to request mutual aid and State support, and

    •	 Equipment necessary for gross decontamination, as appropriate, and
       for emergency lifesaving treatment of victims.

The Michigan strategic plan’s stated priority for training was that weapons of
mass destruction awareness-level training was imperative for all emergency
responders statewide. The priorities for exercises were regional response
team field exercises and table top exercises focusing on the priority sequence
of chemical, biological, and explosive devices.

Meeting Needs and Priorities Not Made Mandatory

The grant agreements between the State Administrative Agency and the
subgrantees did not require the subgrantees to fill or reduce shortfalls
identified during the needs assessment nor make the identified priorities
mandatory. Instead, the State Administrative Agency allowed the subgrantees
freedom to select specific equipment, training, and exercise items from
comprehensive approved lists without regard to the needs assessments and the
stated priorities. Responsible officials in each of the seven local jurisdictions
visited said that they relied upon the views of the local planning team
members each year when the procurement decisions were made rather than
referring to prior reported shortfalls and the priorities. None of the seven

  The State of Michigan’s Management of State Homeland Security Grants

              Awarded During Fiscal Years 2002 through 2004 


                                 Page 9 

counties we visited had related their grant fund expenditures to the identified
shortfalls or the State-established priorities.

State Administrative Agency officials said they did not tell subgrantees what
to procure following the allocation of the funds each year because (1) the local
jurisdictions and first responders were in a better position to determine their
needs and priorities and (2) FEMA did not require the State Administrative
Agency to dictate what the subgrantees procured, so long as the items
procured were on the general FEMA-approved lists. The State Administrative
Agency allowed subgrantees to buy equipment if the equipment was included
on FEMA’ Approved Equipment List without comparing the items procured
with identified shortfalls and established priorities.

The effect of not requiring local jurisdiction to address shortfalls and meet
State priorities is illustrated in the case of personal protective equipment, one
of the three high-priority items in the strategic plan. Because of complaints
from local area first responders about not getting needed personal protective
equipment, State Administrative Agency officials issued a bulletin in
September 2003 stating that the State “strongly advocates that jurisdictions
exercise a duty of care to adequately equip all first responders with a basic
level of preparedness.” The bulletin included a description of the minimum
personal protective equipment (respirators, protective suits, boots, and gloves)
for first responder law enforcement, fire, and medical emergency personnel.
Despite its concern, the State Administrative Agency did not mandate that
local jurisdictions give high priority to filling the preparedness needs of first
responder personnel.

Some high-priority personal protective equipment needs were still unmet after
the FY 2004 grant funds were expended and even into the FY 2007 grant
period:

   •	 In one of the counties we visited, the needs assessment identified
      hundreds of high-priority personal protective equipment items needed
      by the County’s law enforcement, fire, and emergency medical
      personnel. However, the County did not purchase any personal
      protective equipment items under the FYs 2002, 2003, or 2004 grants.
      Four of the six other counties visited also had unmet personal
      protective equipment needs.

   •	 Local officials initiated a special project in April 2007 to ensure that
      each of the approximately 1,000 policemen in the 15 counties in
      Michigan’s Upper Peninsula was equipped with the proper personal
      protective equipment for responding to a terrorist attack involving
      weapons of mass destruction. The local project leader said that this
      project was needed because (1) each of the policemen was a potential

 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                               Page 10 

            first responder; (2) some policemen were equipped with a higher level
            of personal protective equipment than they required, some were
            equipped with a lower level of personal protective equipment than they
            needed, and some did not have any personal protective equipment; and
            (3) leaving each county on its own to ensure that policemen have the
            proper personal protective equipment and use it appropriately was not
            a good idea.

     These examples illustrate the importance of the State Administrative Agency
     requiring that personal protective equipment purchases be consistent with
     established preparedness needs and priorities.

Conclusions
     The State Administrative Agency did not ensure that expenditures of first
     responder grant funds were linked to identified needs and to State-established
     priorities. The State Administrative Agency had little assurance that local
     decisions on how to spend grant funds were consistent with the State
     Administrative Agency’s identified priorities.

Recommendations:
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the State of Michigan’s Emergency Management and
     Homeland Security Division to:

        1.	 Directly link the use of grant funds and future funding requests to
            filling the shortfalls in equipment, training, and exercises identified
            during the needs assessment process,

        2.	 Direct local jurisdictions to follow State-established priorities for using
            grant funds, and

        3. 	 Follow up to ensure that the local jurisdictions use future grant funds
             to meet identified shortfalls consistent with the State’s priorities.

Management Comments
     We received verbal concurrences with the recommendations from FEMA and
     State of Michigan officials. In their written comments, the State
     Administrative Agency officials agreed that first responder grant funds should
     be linked to first responder needs and to State-established priorities.
     Additionally, in their written comments, the State officials cited the following
     planned actions related to the recommendations:


      The State of Michigan’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2002 through 2004 


                                    Page 11 

               •	 Establishing, via guidance for implementing FY 2006 regional
                  projects, a Regional Homeland Security Planning Board, whose
                  mission is to ensure that homeland security initiatives address
                  capability and program shortfalls and objectives identified in state and
                  regional strategies,

               •	 Developing, in 2006, a Program and Capability Enhancement Plan
                  which included identifying gaps that needed to be addressed for the
                  state to achieve a baseline level of capability, and

               •	 Including in the 2007 Grant Guidance (being developed) the
                  requirement to align expenditures with current capabilities.

     Auditor’s Analysis

           The actions cited above are related to front-end program guidance or to
           program planning and could, if carried out, help accomplish the
           recommendations. Additional actions are needed to ensure that actual uses of
           funds (i.e., expenditure reimbursements) are consistent with needs
           assessments and program priorities.

           The Administrator, Federal Emergency Management Agency, needs to
           provide corrective actions for the recommendations and a plan to implement
           the actions within 90 days.

Established Goals and Objectives Not Measurable
           The State-established list of statewide goals and objectives, although approved
           by FEMA, did not provide an adequate basis for measuring improvements in
           local first responders’ capability in terms of equipment, training, and
           exercises. The State Administrative Agency did not establish, nor require
           local jurisdictions to establish, goals and specific objectives with which to
           measure progress toward becoming adequately equipped, trained, and
           exercised as first responders to terrorist attacks involving weapons of mass
           destruction.

           Code of Federal Regulations Title 44 § 13.40, Monitoring and reporting
           program performance, requires that grantees assure that performance goals
           are achieved. This section, which applies to all grant years included in the
           audit, also requires that grantees adhere to these same standards in prescribing
           performance and reporting for subgrantees.

           In 1999, DHS issued guidance to grantees for performing a statewide needs
           assessment that analyzed potential terrorist threats, risks, and vulnerabilities.

             The State of Michigan’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2002 through 2004 


                                           Page 12 

Based on these assessments, grantees and subgrantees were required to
identify shortfalls or “gaps” in equipment, training, and exercises and prepare
a “Three-Year Statewide Domestic Preparedness Strategy” to remedy the
gaps. To measure progress, the guidance required grantees to establish a
formal plan to evaluate the effectiveness of the Strategy in improving the
State’s ability to respond to terrorism incidents involving weapons of mass
destruction. A similar needs assessment process was mandated by DHS in
2003 as a prerequisite to receiving FY 2004 Homeland Security grant funds.
DHS guidance for this 2003 assessment required a formal evaluation plan and
other requirements to “monitor progress, compile key management
information, track trends, and keep the strategy on track.” In addition, it
specified that the State Administrative Agency’s new or updated Strategy
should include broad-based goals with objectives that were “specific,
measurable, achievable, results-oriented, and time limited.”

The Program Guidance for the FY 2002 grant program required applicants to
provide an overview of the State Administrative Agency’s implementation
plan for the statewide domestic preparedness strategy. The plan was to
include measurable program objectives for equipment, exercise, and
administrative allocations, a list of corresponding activities, and a description
of the specific evaluation methods to be used. Examples of acceptable
measures for the components of the program were provided in the guidance.
The FYs 2003 and 2004 Program Guidance packages required the applicants
to report the progress made on achieving the State’s overall goals and
objectives as identified in the state homeland security strategy.

In establishing its statewide goals and objectives, the State Administrative
Agency did not develop specific measurable goals and objectives related to
local jurisdictions’ receipt and usage of grant funds for equipment, training,
and exercises. For example, the statewide goal and objectives related to local
jurisdictions’ first responder equipment were as follows:

         Goal: Provide local jurisdictions with equipment needed for
         multiple-discipline response to weapons of mass destruction
         terrorism incidents.

         Objective 1. Increase response equipment for weapons of mass
         destruction defensive operations.

         Objective 2. Ensure resources are distributed to each jurisdiction for
         procurement of mass gross decontamination capability.

State Administrative Agency officials said that specific goals and objectives
had not been established or required for local jurisdictions because the State
Administrative Agency believed it was not a FEMA requirement to do so.

 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                               Page 13 

     State Administrative Agency officials said that, if an item of equipment was
     on the FEMA approved list, it was considered an eligible item. Local officials
     that we visited said they expended the grant funds based on input from first
     responders. Local officials also said that neither they nor the State
     Administrative Agency had ever evaluated the local jurisdictions’
     performance under the grant programs.

Conclusions
     Without specific measurable goals and objectives related to individual local
     jurisdictions, the State Administrative Agency did not have an adequate basis
     to evaluate the effect that grant funds had on the capability of first responders
     to respond to terrorist attacks involving weapons of mass destruction. Also,
     the State Administrative Agency could not consider progress toward goals
     and objectives in future funding and management decisions.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the State of Michigan’s Emergency Management and
     Homeland Security Division to:

        1. 	 Develop specific, measurable goals and objectives applicable to local
             jurisdictions for enhancement of their first response capabilities in
             terms of adequately equipped, trained, and exercised personnel,

        2. 	 Incorporate the goals and objectives into a statewide system for local
             jurisdictions to measure progress toward achieving the goals and
             objectives, and

        3. 	 Use the progress achieved toward the goals and objectives as a basis
             for future first responder grant funding decisions.

Management Comments
     We received verbal concurrences with the recommendations from FEMA and
     State of Michigan officials. In their written comments, the State
     Administrative Agency officials agreed that the established goals and
     objectives were not sufficiently specific and measurable. The State officials
     also provided details on the Agency’s initiatives from 2005 through 2007 to
     improve their homeland security programs and capabilities. The cited
     initiatives included plans to:

        •	 Establish a systematic plan review, update, and tracking process for all
           regional and local programs,

      The State of Michigan’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2002 through 2004 


                                    Page 14 

              •	 Develop a quality assurance and evaluation process under which state,
                 regional, and local programs’ current status can be assessed and gaps
                 can be identified,

              •	 Establish a program and capability review process for all regions and
                 local programs to ensure that homeland security efforts are targeted to
                 meet identified needs based on unique regional characteristics, and

              •	 Develop a monitoring system to track grant funding and strategic
                 expenditures statewide to ensure that funds are being used
                 appropriately, existing capability is sustained, and program guidelines
                 are followed.

     Auditor’s Analysis
          The cited initiatives indicate that the state officials are aggressively pursuing
          important improvements in their management of homeland security grant
          programs. If the planned initiatives are effectively implemented, the
          initiatives should provide the groundwork for the state, regional, and local
          officials to establish and use meaningful, specific, measurable goals and
          objectives. The recommendations should remain open until FEMA considers
          the established goals and objectives as meeting the criteria in Code of Federal
          Regulations Title 44 § 13.40. That is, FEMA must determine if the goals and
          objectives are being used in a statewide system for local jurisdictions to
          measure progress toward achieving the goals and objectives, and the progress
          achieved toward the goals and objectives are being used as a basis for future
          first responder grant funding decisions.

          The Administrator, Federal Emergency Management Agency, needs to
          provide corrective actions for the recommendations and a plan to implement
          the actions within 90 days.

Program Monitoring and Evaluation Not Adequate
          The State Administrative Agency did not require the local jurisdictions to
          report on progress achieved in improving their capability to respond to
          terrorist attacks with weapons of mass destruction. In addition, on-site
          monitoring visits by State officials to local jurisdictions were infrequent and
          included minimal program performance issues. Accordingly, the State
          Administrative Agency did not have an adequate picture of how the
          subgrantees were performing under the grant.

          Code of Federal Regulations Title 44 § 13.40, Monitoring and reporting
          program performance (in effect for all grant years), indicates that grantees are
            The State of Michigan’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2002 through 2004 


                                          Page 15 

     responsible for managing the day-to-day operations of grant and subgrant
     supported activities. Grantees must monitor grant and subgrant supported
     activities to assure compliance with applicable federal requirements and that
     performance goals are being achieved. Grantee monitoring must cover each
     program, function, or activity. Effective monitoring programs involve
     analysis and evaluation of periodic progress reports and regular site visits.

     The State Administrative Agency had no specific information on the degree to
     which local jurisdictions’ use of FYs 2002, 2003, and 2004 grant funds
     improved their capabilities to respond to terrorist attacks with weapons of
     mass destruction. Local jurisdictions did not submit progress reports. Also,
     the State Administrative Agency’s site monitoring visits generally did not
     cover program results issues. The State Administrative Agency did not
     optimize the benefits of on-site monitoring for detecting problems, such as
     those found during our visits to selected counties, including:

        •	 Difficulty in locating emergency equipment,

        •	 Questionable need for an emergency response trailer purchased with
           grant funds,

        •	 Unauthorized use of an emergency tow vehicle for personal
           commuting, and

        •	 Emergency equipment, such as personal protective equipment and an
           emergency response trailer, not immediately accessible or ready for
           emergency use.

     State Administrative Agency officials said (1) they did not require local
     jurisdiction progress reporting because it was not required by FEMA and
     (2) monitoring visits focused on FEMA-prescribed fiscal and compliance
     requirements.

Conclusions
     Without adequate program monitoring and evaluation, the State
     Administrative Agency could not assess the activities of the local jurisdictions
     or measure first responder progress in preparing to respond to terrorist attacks
     involving weapons of mass destruction.




      The State of Michigan’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2002 through 2004 


                                    Page 16 

Recommendations
    We recommend that the Administrator, Federal Emergency Management
    Agency, require the State of Michigan’s Emergency Management and
    Homeland Security Division to:

      1.	 Establish a system for progress reporting by local jurisdictions that
          documents their progress toward achieving acceptable levels of
          equipment, training, and exercises for first responders,

      2.	 Increase the frequency of site visits to local jurisdictions and expand the
          scope of the visits to include program performance issues, including the
          use and readiness of equipment for emergencies, and

      3.	 Use the progress reported and the results of the site visits as factors in
          future management and funding decisions.

Management Comments

    We received verbal concurrences with the recommendations from FEMA and
    State of Michigan officials. Additionally, in their written comments, the State
    officials said that, since 2004 they have implemented significant program
    monitoring and evaluation actions, including the following:

        •	 Inclusion of program performance issues in site visits to local
           jurisdictions,

        •	 Plans for establishing a systematic plan review, update, and tracking
           process for regional and local programs, as well as for establishing
           benchmarks and a system to track grant funding and strategic
           expenditures statewide,

        •	 Establishing, early in 2007, a performance and reporting unit to
           develop tools and analyze program expenditures and activities,

        •	 Developing an allowability cost justification form and quarterly
           reporting form that will improve the system for local jurisdiction
           progress reporting and monitoring, and

        •	 Developing grant guidance for 2007 that will include the requirement
           to align expenditures with current capabilities.




      The State of Michigan’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2002 through 2004 


                                    Page 17 

     Auditor’s Analysis

          The State Administrative Agency’s planned actions would be sufficient
          responses to the recommendations provided that (1) local jurisdiction progress
          reports focus on progress toward achieving acceptable levels of equipment,
          training, and exercises for first responders, (2) monitoring visits include
          evaluations of the use and readiness of equipment procured with grant funds,
          (3) consideration is given to increasing the frequency of monitoring visits, and
          (4) reported progress and monitoring results are factored into future
          management and funding decisions.

          The Administrator, Federal Emergency Management Agency needs to provide
          corrective actions for the recommendations and a plan to implement the
          actions within 90 days.

Training Needs Not Met
          Substantial funds were allocated for needed training under the FY 2003
          Part II program, but subgrantees fell far short of using the funds to provide the
          training before the grant deadline expired. More than 50 percent of the funds
          allocated for training to the seven counties visited were withdrawn and
          reallocated by the State Administrative Agency for other purposes. As a
          result, opportunities for needed training were lost.

          Training is a crucial element to improving capabilities to respond to terrorist
          attacks with weapons of mass destruction. The State Administrative Agency’s
          original and updated homeland security strategies identified significant needs
          for training at the local level. The original strategy, published in 2001,
          indicated that about 77 percent of approximately 200,000 local personnel
          needing training in weapons of mass destruction had not been trained.

          The FY 2002 grant program did not provide any funds for training. Although
          the FY 2003 Part I program provided $838,000 to the State for training, none
          of the seven counties visited received any of those funds. However, the seven
          counties were awarded a total of $717,260 for training under the FY 2003 Part
          II program. Of that total, $387,620 (54 percent) remained unused and was
          reallocated by the State Administrative Agency for other uses after the
          counties’ grant deadline expired.

          Local officials told us that the grant period for FY 2003 Part II training funds
          (which was 1 year beginning March 1, 2004 and ending February 28, 2005)
          did not provide sufficient time for arranging and holding the needed training
          classes. State Administrative Agency officials agreed, but said the primary
          reason for the training funds not being spent was that DHS’ original guidance
          did not allow reimbursement of overtime or backfill costs for part-time or

            The State of Michigan’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2002 through 2004 


                                          Page 18 

     volunteer first responder personnel who attended training classes. The State
     Administrative Agency officials said that 70 percent of Michigan’s first
     responders are part-time or volunteer personnel. The officials also said that,
     by the time DHS changed the guidance to allow overtime for part-time and
     volunteer personnel, it was too late in the grant cycle for locals to expend the
     training funds.

     The State Administrative Agency’s subgrants of FY 2004 program authorized
     funds to counties for training, equipment, planning, and exercises but did not
     specify how much was to be applied to each of these purposes. The seven
     counties visited were awarded a total of $3.5 million in FY 2004 funds for all
     purposes. Four of the counties did not spend any of these funds for training,
     while the other three spent a total of about $17,000 for training. Accordingly,
     the training needs for the seven counties were not satisfied with the FY 2004
     funds.

Conclusion

     Needed training for law enforcement, fire, medical, and other first responder
     personnel for the seven counties visited was not provided. Subgrantees fell
     far short of providing the training envisioned under the FY 2003 Part II
     program. More than 50 percent of the FY 2003 Part II funds allocated for
     training to the seven counties visited was withdrawn and reallocated by the
     State Administrative Agency for other purposes. Although the seven counties
     were authorized to use FY 2004 grant funds for training, only three did so.
     The other four counties did not spend any of the grant funds on training.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the State of Michigan’s Emergency Management and
     Homeland Security Division to:

        1.	 Ensure that unfilled training needs of first responder personnel are
            adequately addressed under future grants, and

        2.	 Proactively assist local jurisdictions in identifying and scheduling
            appropriate training opportunities for first responders.

Management Comments
     We received verbal concurrences with the recommendations from FEMA and
     State of Michigan officials. Additionally, in their written comments, the State
     Administrative Agency officials acknowledged that:


      The State of Michigan’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2002 through 2004 


                                    Page 19 

                   •	 Training needs identified for the FY 2003 Part II grant were not
                      met and, although FY 2004 funds were allowed for training and
                      other purposes, there was no requirement that FY 2004 funds be
                      used to fill the needs,

                   •	 Their training center trained over 18,750 first responders between
                      FY 2004 and FY 2007,

                   •	 Over 150,000 local responders have participated in on-line
                      training and another 3,500 local responders attended out-of-state
                      training, and

                   •	 Local responders have many training opportunities that may be
                      provided by funding sources other than DHS grant funds, which
                      need to be considered when determining whether overall training
                      needs have been met.

           The state officials’ response also included comments on their efforts to
           publicize and promote training opportunities.

     Auditor’s Analysis

           The response from the State Administrative Agency officials acknowledged
           that the FY 2003 Part II identified training needs were not met. The State’s
           response also identified other training opportunities for first responders.
           However, specific actions by the State Administrative Agency were not
           proposed to ensure that unfilled training needs of first responder personnel are
           adequately addressed under future grants.

           The Administrator, Federal Emergency Management Agency, needs to
           provide corrective actions for the recommendations and a plan to implement
           the actions within 90 days.

Reallocated Funds Not Fully Explained or Documented
           The State Administrative Agency did not adequately explain or document the
           use of $493,385 in reallocated FY 2003 Part II grant funds originally allocated
           to seven local jurisdictions for training and planning. State Administrative
           Agency officials acknowledged that they identified millions of dollars
           statewide that could not be used by subgrantees, which were withdrawn from
           the original subgrantees and reallocated for other purposes. However, the
           State Administrative Agency did not explain or document (1) the amount of
           the identified pool of funds, (2) which subgrantees received the reallocated
           funds, and (3) for what the funds were used.


            The State of Michigan’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2002 through 2004 


                                          Page 20 

Code of Federal Regulations Title 44 § 13.20 entitled Standards for financial
management systems requires that the fiscal control and accounting
procedures of the State and its subgrantees must be sufficient to establish that
grant funds have not been used in violation of applicable statutes.

The seven counties visited did not use $493,383 (47 percent) of the training
and planning funds allocated by the State Administrative Agency from the
FY 2003 Part II grant program. The unused training and planning funds were
$387,620 and $105,763, respectively. State Administrative Agency officials
acknowledged that the problems with spending the allocated training and
planning funds were not limited to the seven counties we visited. The
officials said that, state-wide, the unspent training and planning funds totaled
several million dollars. The officials also said that, once the counties’
deadlines for spending the funds expired, the State Administrative Agency
withdrew the funds from the counties’ grant award amounts and reallocated
the funds for “quick turn-around” projects before the State’s grant period
expired.

In March 2007, State Administrative Agency officials said that they could not
account for the reallocated funds on a dollar-for-dollar basis. The officials
agreed to provide us with an explanation of to whom and for what the unused
FY 2003 Part II funds were reallocated. After several follow-up contacts, the
State Administrative Agency’s explanation, dated June 4, 2007, included the
following comments:

       When money was unable to be spent by a subgrantee for the
       designated purposes, it was withdrawn from their award amount and
       pooled for another distribution on another eligible activity. It either
       was done through a new grant agreement if a new subgrantee was
       identified, or through an award adjustment to a subgrantee with an
       existing grant agreement. So, we cannot say that a dollar originally
       awarded to County X and returned to the state went to County Y.
       What we can say is that the pool of unspent local share money was
       identified and re-awarded for other projects with either existing or new
       local subgrantees. The process maintained the 80/20 requirement of
       the grant.

The State Administrative Agency’s response did not include supporting
documentation for its management of the reallocated funds, including the
amount of the “pool of unspent local share money” that “was identified,” or to
whom and for what the money was “re-awarded.” Instead, the State
Administrative Agency said that it had fully and completely accounted for the
2003 Part II funds via the FEMA-required final Categorical/Discretionary
Assistance Progress Report and related documents, such as schedules of fund
allocations and payments, and narratives extracted from the Categorical

 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                               Page 21 

Assistance Progress Report. Copies of these documents were attached to the
State Administrative Agency’s response.

We analyzed the documents attached to the State Administrative Agency’s
response and concluded that a full and complete explanation was not provided
for several reasons, including the following:

   •	 There was nothing in the documents to tie the allocation and payment
      schedules to the total amount of the FY 2003 Part II grant, which was
      $42,162,000. These schedules included FY 2003 Urban Area Security
      Initiative allocations and payments, with no explanation of how this
      information is related to the FY 2003 Part II State Homeland Security
      Grant Program.

   •	 The Categorical Assistance Progress Report’s cover sheet, while
      containing the name and grant number for the FY 2003 Part II grant,
      showed the total grant amount as $62,032,000, or almost $20 million
      more than the FY 2003 Part II grant amount. Also, the report was
      identified as a “regular” rather than a “final” progress report.
      Furthermore, a reference in the progress report to “attachments
      submitted” did not identify which, if any, of the documents attached to
      the State Administrative Agency’s June 4, 2007, response had been
      submitted to FEMA with the progress report.

   •	 There were no supporting documentation or comments concerning the
      amount of unexpended funds that was reallocated, to which
      subgrantees the funds were reallocated, or how the funds were used.

In August 2007, we provided Michigan officials with a preliminary statement
of the results of our audit, including the information presented in this section
on the need to account for the reallocated planning and training funds. On
October 9, 2007, the State Administrative Agency’s Internal Auditor advised
us by telephone that she had reviewed the State Administrative Agency’s
June 4, 2007, documentation package (described above). She said that she
and her staff had subsequently developed a full reconciliation of the funds,
which was a very difficult and time-consuming task.

By a letter dated October 12, 2007, the Internal Auditor provided us
additional, general information and numerous summary schedules assembled
in her efforts to fully account for the FY 2003 Part II grant funds. The
additional information and summary schedules consisted of about 200 pages,
including a summary schedule showing general “grant areas” in which the
FY 2003 Part II grant funds were spent. The numerous other schedules were
assembled to support this summary. The total payments in the summary were
very close to the total 2003 Part II grant amount of $42,162,000. Neither the

 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                               Page 22 

     summary nor the supporting documents clearly differentiate between original
     allocations and reallocations of grant funds.

     The Internal Auditor’s October 12, 2007, letter concluded that “we believe
     this documentation will provide you with the appropriate documentation to
     understand the reallocation of funds and complete accounting, and to
     eliminate this audit finding.”

     Although it appears that the Internal Auditor spent an enormous amount of
     time preparing this reconciliation, we cannot accept it at face value. Extensive
     additional fieldwork would have to be done to verify the dollars shown in the
     reconciliation in order to determine validity. Also, from our brief review of
     the Internal Auditor’s reconciliation, we believe it does not answer the
     questions raised above concerning Michigan’s management and ultimate use
     of the reallocated training and planning funds. For example, the reconciliation
     contains a schedule that shows that $3.6 million dollars of training funds were
     de-obligated, but it did not show who received the reallocated funds or the
     ultimate use of the funds. The package received also did not include or
     identify required source documentation, such as amended subgrantee grant
     agreements, to support management’s decisions. The reconciliation only
     shows that the entire grant was spent on various items, which we assume the
     State Administration Agency believes are eligible.

Conclusions

     The State Administrative Agency did not provide adequate explanations and
     supporting documentation for the reallocation and use of training and planning
     funds under the FY 2003 Part II grant program. The difficulty experienced by
     the State Administrative Agency in responding to questions raised during the
     audit fieldwork, and the need for extensive and time-consuming effort by the
     Internal Auditor, clearly indicate the need for improvements to the State
     Administrative Agency’s system for tracking and documenting the allocation
     and use of grant funds.

Recommendations

     We recommend that the Administrator, Federal Emergency Management
     Agency, require the State of Michigan’s Emergency Management and
     Homeland Security Division to:

        1.	 Provide explanations and supporting documentation for the use of the
            reallocated FY 2003 Part II training and planning funds that identifies:

            a. The amount withdrawn from the original subgrantees,
            b. The subgrantees to whom the funds were reallocated,
      The State of Michigan’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2002 through 2004 


                                    Page 23 

                  c.	 The amount reallocated, and
                  d.	 The ultimate use of the reallocated funds.

              2.	 Improve the State Administrative Agency’s system for tracking and
                  documenting the use of grant funds, especially when reallocations are
                  necessary during the grant period.

     Management Comments

           We received verbal concurrences with the recommendations from FEMA and
           State of Michigan officials. Additionally, in their written comments, the State
           officials agreed that explanations and supporting documentation for the
           reallocated training and planning funds were inadequate. The officials said
           that the 2006 Program and Capability Enhancement Plan has established an
           initiative to review, update, and track all regional and local programs, as well
           as to establish benchmarks and a monitoring system to track grant funding and
           strategic expenditures statewide.

     Auditor’s Analysis

           The recommendation concerning the use of the reallocated FY 2003 Part II
           funds should remain open until State Administrative Agency officials provide
           the Administrator, Federal Emergency Management Agency, with adequate
           explanations and supporting documentation for the use of the funds.
           However, the FY 2006 initiative, if effectively implemented, should be
           sufficient to address the recommendation that the State Administrative
           Agency improve its system for tracking and documenting the use of grant
           funds.

           The Administrator, Federal Emergency Management Agency, needs to
           provide corrective actions for the recommendations and a plan to implement
           the actions within 90 days.

Personal Property Controls and Accountability Not Enforced
           The State Administrative Agency did not enforce the requirement that
           subgrantees establish and maintain effective control and accountability
           systems to (1) safeguard personal property procured with first responder grant
           funds or (2) assure that the property was used solely for authorized purposes.
           None of the seven counties visited had the control or accountability systems
           required by federal regulations. Accordingly, there was no assurance that
           millions of dollars of personal property procured with federal grant funds was
           adequately safeguarded or used solely for authorized purposes.



            The State of Michigan’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2002 through 2004 


                                          Page 24 

Code of Federal Regulations Title 44 § 13.32 Equipment requires that
property records be maintained that include the property’s cost, description,
identification number, location, use, condition, and ultimate disposition. The
regulation also requires that a control system be developed to ensure adequate
safeguards to prevent loss, damage, or theft of the property. Under Title 44
§ 13.3, Definitions, equipment means tangible, non-expendable, personal
property having a useful life of more than one year and an acquisition cost of
$5,000 or more per unit.

In addition, Code of Federal Regulations Title 44 § 13.20 Standards for
financial management systems requires that effective control and
accountability must be maintained for all personal property procured with
federal funds. Grantees and Subgrantee must adequately safeguard all such
property and must assure that it is used solely for authorized purposes. Under
Title 44 § 13.3, Definitions, equipment and supplies are considered to be
personal property. The federal regulations are included by reference in the
State Grant Agreements with subgrantees.

None of the seven counties we visited had satisfactory control and
accountability for personal property procured with first responder grant funds.
We were able to locate procured personal property selected for physical
inspection, mainly because county emergency management officials could
mentally recall where the items were and who had possession of the property.
Complete documentation did not exist that would have enabled us to locate
the property and its custodians.

Many of the equipment items procured with the grant funds exceeded the
federal equipment thresholds of costing at least $5,000 with a life of more
than one year. These items required the specific records required by Code of
Federal Regulations Title 44 § 13.32. Many of the items, while not exceeding
the thresholds, cost several thousand dollars and were easily portable.

Grant agreements between the State Administrative Agency and local
jurisdictions contained general references to federal safeguarding and
accountability requirements for personal property. However, the State’s
subgrantees did not comply with the requirements. State Administrative
Agency officials did not enforce subgrantee compliance with the federal
requirements.




 The State of Michigan’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2002 through 2004 


                               Page 25 

Conclusions
     The State Administrative Agency did not enforce the requirements that
     subgrantees establish and maintain federally required safeguards and
     accountability controls for personal property procured with the first responder
     grant funds. Without satisfactory controls, the State Administrative Agency
     and its subgrantees did not have an effective way to ensure that the property
     was adequately safeguarded or used solely for authorized purposes.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the State of Michigan’s Emergency Management and
     Homeland Security Division to:

         1.	 Direct subgrantees to establish and maintain specific property records
             and safeguards as required by federal regulations for equipment
             purchased with first responder grant funds that meets the $5,000 and
             1-year life thresholds, and

         2.	 Direct subgrantees to establish and maintain property records as
             required by federal regulations for all other personal property
             purchased with first responder grant funds, with special emphasis on
             sensitive and portable equipment.

Management Comments

     We received verbal concurrences with the recommendations from FEMA and
     State of Michigan officials. In their written comments, the state officials
     agreed that subgrantees’ compliance with federal requirements regarding
     property and accountability was not adequately enforced. The officials said
     that since the establishment of the audit unit in 2004, subrecipients have been
     required to provide an inventory of all purchases as part of the on-site
     subrecipient monitoring review. To further strengthen subgrantee monitoring,
     the State Administrative Agency officials said that they will begin requiring
     subgrantees to annually submit inventories to district coordinators.

Auditor’s Analysis

     When the requirement for the district coordinators to receive annual
     inventories from the subgrantees is established, the recommendations will
     have been adequately addressed.




       The State of Michigan’s Management of State Homeland Security Grants

                   Awarded During Fiscal Years 2002 through 2004 


                                     Page 26 

          The Administrator, Federal Emergency Management Agency, needs to
          provide corrective actions for the recommendations and a plan to implement
          the actions within 90 days.

Some Equipment Not Needed, Misused, or Not Ready
          Our visits to seven counties found several instances where equipment was not
          being utilized or maintained as intended. In one county, an emergency
          response trailer that was not needed was purchased at a cost of $11,000. In
          another county, an emergency response vehicle, costing $22,800, was being
          used for daily commuting. As a result, the expenditure of the $33,800 for the
          unneeded trailer and the vehicle that was being used for daily commuting was
          questionable. In addition, in six counties we observed emergency equipment
          that was not immediately accessible or not maintained in ready condition.

          DHS Program Guidelines for all grant programs included in the audit scope
          require that equipment purchases be limited to items needed to respond to
          incidents of terrorism. The Guidelines specifically state that the purchase of
          general use vehicles is not authorized. A FEMA official advised us that using
          an emergency tow vehicle for personal commuting between home and work is
          clearly a violation of the grant guidelines. Also, failure to maintain
          emergency equipment in ready condition is not consistent with the basic
          purpose of the first responder grant programs.

          One county used FY 2002 grant program funds to purchase two emergency
          response trailers for $11,000 each. One trailer was well equipped; the other
          was parked behind a fire station, surrounded by weeds. We observed that one
          side of the trailer was empty, and the County official did not have a key to
          unlock the other side for inspection. However, the County official said that
          the other side was also empty. County officials said that they might have a
          use for the trailer some time in the future.

          Another county purchased a vehicle for $22,800, to be used as the “prime
          mover” (tow vehicle) for an emergency response trailer. However, the vehicle
          was being used by the county emergency management director for daily
          commuting between home and work. The vehicle had no markings to identify
          it as an emergency response vehicle. The emergency management director
          was under the erroneous impression that his being on call 24 hours a day,
          7 days a week, justified his using the emergency tow vehicle for personal
          commuting. Using the tow vehicle for daily commuting:

              •   Was not in compliance with DHS Program Guidelines, and




            The State of Michigan’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2002 through 2004 


                                          Page 27 

        •	 Created the possibility that the vehicle would not be readily accessible
           for towing the emergency response vehicle if a terrorist attack
           involving weapons of mass destruction were to occur.

     Also in six of the seven counties visited, we observed that some items of
     equipment were not immediately accessible or ready for emergency use. For
     example, personal protective equipment was kept in storage rooms in boxes
     and had not been assigned or fitted to individuals; a lock on an emergency
     trailer was so rusted it could not be easily unlocked; a key to an emergency
     trailer was at the home of the county emergency coordinator; and the location
     of a thermal imager could not be immediately determined.

Conclusions
     The trailer and tow vehicle were not being used as intended at the time of our
     visit. Unless the trailer and tow vehicle are used as originally justified, the
     $33,800 expended for these vehicles would be considered a questioned cost.
     In addition, some emergency equipment was not immediately accessible or
     maintained in ready condition. In our opinion, conditions such as these are
     serious impediments to first responders’ ability to respond to terrorist attacks.

Recommendations
     We recommend that the Administrator, Federal Emergency Management
     Agency, require the State of Michigan’s Emergency Management and
     Homeland Security Division to:

        1.	 Review the County’s need for the unused trailer and, if it is not
            needed, disallow the $11,000 claimed as the cost of the trailer,

        2.	 Direct the County to terminate the use of the tow vehicle for personal
            commuting, determine the appropriate disposition of the emergency
            tow vehicle and, if appropriate, disallow the $22,800 claimed for the
            cost of the vehicle, and

        3.	 Clearly communicate to subgrantees that equipment procured with first
            responder grant funds must be needed, used for intended purposes, and
            maintained in an immediately accessible and ready condition at all
            times.

Management Comments

     We received verbal concurrences with the recommendations from FEMA and
     State of Michigan officials. Additionally, in their written comments, the State
     Administrative Agency officials said that they are reviewing the issues related
      The State of Michigan’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2002 through 2004 


                                    Page 28 

     to the unused trailer and the tow vehicle and will take appropriate action
     thereon. They also said that additional communication regarding the use and
     readiness of equipment procured with grant funds will be provided to
     subgrantees during grant guidance meetings, in grant agreements, and during
     monitoring visits.

Auditor’s Analysis

     The State Administrative Agency officials have adequately addressed the
     recommendations.

     The Administrator, Federal Emergency Management Agency, needs to
     provide corrective actions for the recommendations and a plan to implement
     the actions within 90 days.




       The State of Michigan’s Management of State Homeland Security Grants

                   Awarded During Fiscal Years 2002 through 2004 


                                     Page 29 

Appendix A
Objectives, Scope, and Methodology


                    The objectives of the audit were to determine whether the State of Michigan
                    effectively and efficiently implemented the first responder grant programs,
                    achieved the goals of the programs, and spent the funds awarded according to
                    grant requirements. The goal of the audit was to identify problems and
                    solutions that would help the State of Michigan prevent and respond to
                    terrorist attacks. Toward this goal, we considered the following nine
                    “researchable” questions, from which we identified the reportable conditions
                    included in the findings section of this report.

                        •	 Did the State use reasonable methodologies for assessing threat,
                           vulnerability, capability, and prioritized needs?

                        •	 Did the State appropriately allocate funding based on those threats,
                           vulnerabilities, capabilities, and priorities?

                        •	 Has the State developed and implemented plans to measure
                           improvements in preparedness as a result of the grants and have such
                           measurement efforts been effective?

                        •	 Are the State’s procurement methodologies (centralized, local, or
                           combination) reasonable and in conformance with their homeland
                           security strategies?

                        •	 Did the State Administrative Agency have procedures in place to
                           monitor the funds and activities at the local level to ensure that grant
                           funds are spent according to grant requirements and State-established
                           priorities? Have these monitoring procedures been implemented and
                           are they effective?

                        •	 Did the State comply with cash management requirements and
                           financial and status reporting requirements for the grant programs and
                           did local jurisdictions spend grant funds advanced by the State
                           Administrative Agency in a timely manner and, if not, what caused the
                           delays?

                        •	 Were grant funds used according to grant requirements and State-
                           established priorities?

                        •	 Is the time it takes the State to get funds/equipment to first responders
                           (from the time the funds/equipment were available to the State until
                           they were disbursed/provided to the jurisdiction) reasonable (auditor
                           judgment), and if not, what caused the delays?



                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 30 

Appendix A
Objectives, Scope, and Methodology
                        •	 Are there best practices that can be identified and shared with other
                           States?

                    The scope of the audit included the following four grant programs. These
                    programs are described in the Background section of this report.

                        •	   FY 2002 State Domestic Preparedness Program
                        •	   FY 2003 State Homeland Security Grant Program - Part I
                        •	   FY 2003 State Homeland Security Grant Program - Part II
                        •	   FY 2004 Homeland Security Grant Program

                    The audit methodology included work at FEMA Headquarters, the State of
                    Michigan’s offices responsible for the management of the grants, and various
                    subgrantee locations. The subgrantee locations visited included seven
                    counties (Cheboygan, Clinton, Grand Traverse, Leelanau, Midland,
                    Van Buren, and Washtenaw) and 30 first responders within those counties.

                    The purposes of the visits were to obtain an understanding of the four grant
                    programs and to assess how well the programs were being managed. Our
                    audit considered FEMA and State policies and procedures, as well as the
                    applicable federal requirements. We reviewed documentation received from
                    FEMA, as well as from the State Administrative Agency offices and the
                    subgrantees. In each of the locations visited, we interviewed responsible
                    officials, reviewed documentation supporting the State Administrative Agency
                    and subgrantee management of the awarded grant funds, and physically
                    inspected some of the equipment procured with the grant funds. The cut-off
                    date related to the transactions and records reviewed was June 30, 2006. The
                    fieldwork for the audit was conducted between October 2006 and May 2007.

                    The audit of the State of Michigan was conducted in accordance with
                    Government Auditing Standards as prescribed by the Comptroller General of
                    the United States (Yellow Book-2003 Revision). Although this audit included
                    a review of costs claimed, we did not perform a financial audit of those costs.
                    Accordingly, we do not express an opinion on Michigan’s financial statements
                    or the funds claimed in the Financial Status Reports submitted to FEMA. If
                    we had performed additional procedures or conducted an audit of the financial
                    statements in accordance with generally accepted auditing standards, other
                    matters might have come to our attention that would have been reported. This
                    report relates only to the programs specified. The report does not extend to
                    any financial statements of the State of Michigan. The DHS Office of
                    Inspector General is reporting the results of the audit to appropriate DHS
                    officials.




                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 31 

Appendix B
Organization Chart




                                             May 2007




                     The State of Michigan’s Management of State Homeland Security Grants
                                 Awarded During Fiscal Years 2002 through 2004 


                                                   Page 32 

Appendix C
Michigan State Administrative Agency Response




                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 33 

Appendix C
Michigan State Administrative Agency Response




                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 34 

Appendix C
Michigan State Administrative Agency Response




                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 35 

Appendix C
Michigan State Administrative Agency Response




                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 36 

Appendix C
Michigan State Administrative Agency Response




                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 37 

Appendix C
Michigan State Administrative Agency Response




                      The State of Michigan’s Management of State Homeland Security Grants

                                  Awarded During Fiscal Years 2002 through 2004 


                                                    Page 38 

Appendix C
Michigan State Administrative Agency Response


      EMHSD and then will return to DHS. In response to recommendation #3, in addition to requiring
      compliance in EMHSD guidance, additional communication will be provided during EMHSD grant
      guidance included in the grant agreement with local jurisdictions and discussed at
      subrecipient monitoring visits.




                        The State of Michigan’s Management of State Homeland Security Grants

                                    Awarded During Fiscal Years 2002 through 2004 


                                                      Page 39 

Appendix D
Report Distribution


                      Department of Homeland Security

                         Secretary 

                         Deputy Secretary 

                         Chief of Staff 

                         Deputy Chief of Staff 

                         General Counsel 

                         Executive Secretary 

                         Director, GAO/OIG Liaison Office 

                         Assistant Secretary for Office of Policy 

                         Assistant Secretary for Office of Public Affairs 

                         Assistant Secretary for Office of Legislative Affairs 


                         Federal Emergency Management Agency

                         Administrator 

                         Assistant Administrator, Grant Programs Directorate 

                         Deputy Administrator, National Preparedness Directorate 

                         Federal Emergency Management Agency Audit Liaison 

                         Grant Programs Directorate Audit Liaison 

                         National Preparedness Directorate Audit Liaison 


                      Office of Management and Budget

                         Chief, Homeland Security Branch 

                         DHS OIG Budget Examiner 


                      Congress

                         Congressional Oversight and Appropriations Committee, as appropriate




                       The State of Michigan’s Management of State Homeland Security Grants

                                   Awarded During Fiscal Years 2002 through 2004 


                                                     Page 40 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
